Report No. DODIG-2012-033                December 21, 2011




   Award and Administration of Multiple Award Contracts
   for Services at U.S. Army Medical Research Acquisition
                 Activity Need Improvement
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ADM                           Acquisition Decision Memorandum
COR                           Contracting Officer’s Representative
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
IGCE                          Independent Government Cost Estimate
LSJ                           Limited-Source Justification
MAC                           Multiple Award Contract
ODC                           Other Direct Costs
QASP                          Quality Assurance Surveillance Plan
TEAMS                         TRICARE Evaluation, Analysis, and Management Support
USAMRAA                       U.S. Army Medical Research Acquisition Activity
USAMRMC                       U.S. Army Medical Research and Materiel Command
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                       December 21,2011

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Award and Administration of Multiple Award Contracts for Services at
         U.S. Army Medical Research Acquisition Activity Need Improvement
         (Report No. DODIG-2012-033)

We are providing this report for information and use. U.S. Army Medical Research
Acquisition Activity contracting officials generally provided fair opportunity to compete
for task orders awarded under multiple award contracts. However, U.S. Army Medical
Research Acquisition Activity contracting officials did not prepare adequate justifications
for the use of sole-source procurements on 3 task orders, valued at $8.7 million; did not
prepare adequate fair and reasonable price determinations on 2 task orders awarded with
only one proposal, valued at $35.4 million; did not perform adequate surveillance on
19 task orders, valued at $222.8 million; and approved 6 invoices containing unsupported
other direct costs totaling $139,916. We considered management comments on a draft of
this report when preparing the final report.

The Department of the Army comments on a draft of this report conformed to the
requirements of DoD Directive 7650.3 and left no unresolved issues. Therefore, we do
not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8918 (DSN 664-8918). If you desire, we will provide a formal briefing on the
results.




                                              ltrn~ ~
                                              Assistant Inspector General
                                              Acquisition and Contract Management
Report No. DODIG-2012-033 (Project No. D2011-D000CF-0047.000)                                            December 21, 2011


                    Results in Brief: Award and Administration
                    of Multiple Award Contracts for Services at
                    U.S. Army Medical Research Acquisition
                    Activity Need Improvement
What We Did                                                            In addition, the CORs approved six invoices
                                                                       containing unsupported other direct costs
We reviewed U.S. Army Medical Research
                                                                       (ODCs) totaling $139,916. This occurred
Acquisition Activity (USAMRAA) task orders
                                                                       because contracting officers and CORs did not
issued under multiple award contracts (MACs)
                                                                       understand QASP requirements. As a result,
for services to determine whether they were
                                                                       USAMRAA had no assurance that services
properly competed among all awardees and
                                                                       acquired were being rendered fully as agreed to
whether contracting officer’s representatives
                                                                       in the task orders or that contractors were not
(CORs) performed adequate oversight,
                                                                       overpaid.
including reviewing invoices. We reviewed
20 task orders,* valued at about $235.1 million.
                                                                       What We Recommend
What We Found                                                          We recommend the Director, USAMRAA,
                                                                       require contracting officers and CORs to:
USAMRAA contracting officials generally
                                                                          • prepare adequate justifications for sole-
provided fair opportunity to compete for task
                                                                               source awards and maintain complete
orders awarded under MACs. However,
                                                                               contract file support for fair and
USAMRAA contracting officials did not
                                                                               reasonable price determinations for
prepare adequate justifications for the use of
                                                                               negotiated awards,
sole-source procurements on three task orders,
valued at $8.7 million, because contracting                               • develop QASPs before the start of the
officials relied on the logical follow-on                                      task order performance period that
exception without verifying if the exceptions                                  provide measurable metrics to evaluate
were valid. In addition, contracting officials did                             contractor performance and provide set
not prepare adequate fair and reasonable price                                 time frames for frequency of reporting
determinations on two task orders awarded with                                 relevant to the task order,
only one proposal, valued at $35.4 million,                               • require written support for inspection
because they relied on inadequate independent                                  and acceptance of deliverables, and
government cost estimates when determining                                • obtain adequate supporting documents or
price reasonableness. As a result, USAMRAA                                     recover unsupported ODCs of $139,916.
had no assurance that the Government obtained
the best value when issuing the five task orders.                      Management Comments and
                                                                       Our Response
The CORs did not perform adequate
                                                                       The Office of the Surgeon General, Department
surveillance on 19 task orders reviewed.
                                                                       of the Army, agreed with the recommendations,
Specifically, quality assurance surveillance
                                                                       and the comments were responsive. No further
plans (QASP) were either nonexistent or
                                                                       comments are required. Please see the
inadequate, and the CORs did not maintain
                                                                       recommendations table on the back of this page.
evidence of written approval for deliverables.
*
    Surveillance on one task order began just before fieldwork, resulting in insufficient time to measure the surveillance effort.


                                                                  i
Project No. D2011-D000CF-0047.000                              December 21, 2011

Recommendations Table

        Management                   Recommendations    No Additional Comments
                                    Requiring Comment           Required
U.S. Army Medical Research                              A and B
Acquisition Activity




                                         ii
Table of Contents

Introduction                                                             1

      Objectives                                                         1
      Background                                                         1
      U.S. Army Medical Research Acquisition Activity                    1
      Review of Internal Controls                                        2

Finding A. Competition and Price Reasonableness of Task Orders
            at the U.S. Army Medical Research Acquisition Activity       3

      Fair Opportunity Generally Provided                               3
      Sole-Source Awards Not Adequately Justified                       4
      Price Reasonableness Not Adequately Determined                    5
      Conclusion                                                        6
      Recommendations, Management Comments, and Our Response            6

Finding B. Surveillance Needs Improvement                                8

      Criteria for Surveillance of Task Orders                           8
      Quality Assurance Surveillance Plans Not Prepared                  9
      Inadequate Quality Assurance Surveillance Plans                   10
      Contracting Officer’s Representative Acceptance of Deliverables
        Not Documented                                                  11
      Language in Contracting Officer’s Representative Letters
        Too General                                                     11
      Invoice Review Needs Improvement                                  12
      Conclusion                                                        13
      Recommendations, Management Comments, and Our Response            13

Appendices

      A. Scope and Methodology                                          17
             Use of Computer-Processed Data                             17
      B. Prior Coverage                                                 18
      C. Task Orders Reviewed                                           20
      D. Surveillance Issues                                            21

Management Comments

      Department of the Army                                            23
Introduction
Objectives
This was a follow-up audit on DoD Inspector General Report No. D-2001-189, “Multiple
Award Contracts for Services,” and the U.S. Army Medical Research and Materiel
Command (USAMRMC) was not covered at that time. The audit objectives were to
determine whether task orders under professional, administrative, and management
support services multiple award contracts (MACs) were properly competed among all
awardees and whether adequate oversight, including review of invoices, was performed
for the contracts. This is the first in a series of reports addressing the use of MACs for
services by DoD activities. See Appendix A for a discussion of the scope and
methodology. See Appendix B for prior coverage related to the objectives.

Background
A MAC is a group of indefinite-delivery, indefinite-quantity (IDIQ) contracts used by
DoD customers to obtain services. Specifically, all IDIQ contractors with contracts in the
group are to be given fair opportunity to compete for award of a task order. Multiple
award contracting enables the Government to procure services more quickly using
streamlined acquisition procedures while taking advantage of competition to obtain
optimum prices. Federal Acquisition Regulation (FAR) Subpart 16.5, “Indefinite-
Delivery Contracts,” establishes a preference for making multiple awards of indefinite-
quantity contracts under a single solicitation for the same or similar services to two or
more sources.

The Defense Federal Acquisition Regulation Supplement (DFARS) 207.170-2,
“Definitions,” defines a MAC as (1) a multiple-award-schedule contract issued by the
General Services Administration and the Department of Veterans Affairs as described in
FAR Subpart 8.4, “Federal Supply Schedules,” (2) a multiple award task order or
delivery order contract issued in accordance with FAR subpart 16.5, or (3) any other
IDIQ contract that an agency enters into with two or more sources for the same line item
under the same solicitation.

U.S. Army Medical Research Acquisition Activity
The U.S. Army Medical Research Acquisition Activity (USAMRAA) is a subordinate
command of the USAMRMC, which is the Army’s medical materiel developer, and is
responsible for medical research, development, acquisition, and medical logistics
management. The Command has 12 subordinate commands located throughout the
world. USAMRAA provides contracting support to the Command Headquarters and its
global network of laboratories and medical logistics organizations. USAMRAA’s
mission is to provide quality, timely, and cost-effective business advice and solutions for
its customers and other stakeholders.




                                             1
We examined task orders from two sets of MACs from USAMRAA. The first MAC
provides administrative, scientific, information technology, program management,
training, consultation, facilitation, privatization, financial support products, and
technology assessment services for USAMRMC research development and acquisition
areas. Support includes medical research development and acquisition programs
conducted by USAMRMC and administrative support functions for the USAMRMC
Command Group. Each task order we selected for review had a $100 million ceiling;
however, a ceiling amount for the MAC was not established.

The second MAC, TRICARE Evaluation, Analysis, and Management Support (TEAMs),
supports the TRICARE Management Activity Procurement Support Office in its mission.
The Office of the Assistant Secretary (Health Affairs)/TRICARE Management Activity
have a requirement for support to the principles of DoD program management to ensure
the delivery of high-quality, cost-effective healthcare services. The ceiling amount for
the TEAMS MAC is $10.5 billion. See Appendix C for a list of task orders reviewed.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in USAMRAA contracting officer’s representatives (CORs) surveillance of
task orders. Specifically, USAMRAA contracting officials either did not develop or
developed inadequate quality assurance surveillance plans (QASPs) for task orders
awarded under MACs. Additionally, the CORs could not provide written documentation
of acceptance of deliverables. See Appendix D for a summary of surveillance issues for
each task order. We will provide a copy of the report to the senior official responsible for
internal controls in the Department of the Army and the TRICARE Management
Activity.




                                             2
Finding A. Competition and Price
Reasonableness of Task Orders at U.S. Army
Medical Research Acquisition Activity
USAMRAA contracting officials generally provided fair opportunity for competition on
17 task orders, valued at $226.4 million, 1 and made proper price reasonableness
determinations on 15 task orders, valued at $191 million. However, on 5 of 20 task
orders 2 reviewed, USAMRAA contracting officials:

    •    did not prepare adequate justifications for the use of sole-source procurements on
         3 task orders, valued at $8.7 million, and

    •    did not prepare adequate fair and reasonable price determinations on 2 task orders
         awarded with only one proposal, valued at $35.4 million.
This occurred because USAMRAA contracting officials relied on the logical follow-on
exception without verifying whether the exception was valid. In addition, contracting
officials relied on inadequate independent government cost estimates (IGCEs) when
determining price reasonableness on awards with only one proposal. As a result,
USAMRAA contracting officials had no assurance that the Government obtained the best
value when issuing task orders under MACs.

Fair Opportunity Generally Provided
USAMRAA contracting officials generally provided fair opportunity when awarding task
orders against established MACs. FAR 16.505(b)(2), “Ordering,” requires the
contracting official to provide fair opportunity to all contract holders under the MAC to
be considered for every task order award over $3,000 unless one of the following
statutory exceptions apply:

                  (i) The agency need for the supplies or services is so urgent that
                  providing fair opportunity would result in unacceptable delays;

                  (ii) Only one awardee is capable of providing the supplies or services
                  required at the level of quality required because the supplies or services
                  ordered are unique or highly specialized;

                  (iii) The order must be issued on a sole-source basis in the interest of
                  economy and efficiency as a logical follow-on to an order already
                  issued under the contract, provided that all awardees were given a fair
                  opportunity to be considered for the original order.

                  (iv) It is necessary to place an order to satisfy a minimum guarantee.


1
 Throughout the report, the stated value of task orders is the base year plus the option years.
2
 Surveillance on one task order began just before fieldwork, resulting in insufficient time to measure the
surveillance effort.

                                                      3
Contractors under the two MACs were given fair opportunity to bid on 17 of 20 task
order awards reviewed.

Sole-Source Awards Not Adequately Justified
USMARAA contracting officials awarded three task orders, valued at $8.7 million, on a
sole-source basis without adequate justification. Specifically, contracting officials
inadequately justified the sole-source awards in the price negotiation memorandum
instead of preparing a limited-source justification (LSJ).

Contracting officials cited FAR 16.505(b)(2)(iii), relating to the logical follow-on
exception, as the exception to fair opportunity for all three awards. FAR 16.505 states
that if the logical follow-on exception is used, the rationale shall describe why the
relationship between the initial order and the follow-on is logical. In addition,
USAMRAA Policy 08-01, “Limited-Source Justifications,” February 5, 2008, establishes
the guidelines for the creation, review, and approval of LSJs. This policy applies to
orders placed against Federal supply schedules or orders placed that take exception to the
multiple award fair opportunity process under FAR 16.505(b)(2). Specifically, the policy
requires all LSJs to be prepared in accordance with FAR 8.405-6(g)(2), 3 “Limited
sources justification and approval.” FAR 8.405-6 requires the LSJ to identify the
rationale and facts supporting the justification, determine that the order is the best value,
and include a description of the market research performed.

For example, USAMRAA contracting officials awarded a sole-source task order for
analytical services at USAMRMC, valued at $4.7 million, using the follow-on exception.
However, the contracting official did not prepare an LSJ that explained the rationale for
the use of the follow-on exception. Instead, the following boilerplate statement was
included in the price negotiation memorandum for this task order:

                   In accordance with FAR 16.505(b)(2)(iii) and the contract, this task
                   order will be issued on a Sole-Source basis in the interest of economy
                   and efficiency because it is a logical follow-on order already issued
                   under an IDIQ contract.

The three sole-source awards were not supported as required. Specifically, USAMRAA
contracting officials did not have evidence that competition occurred on the initial award
of the three task orders. In addition, USAMRAA officials did not have documentation
supporting the relationship between the initial awards and the new orders to justify the
logical follow-on exception. Also, the competition advocate did not review the sole-
source awards and a legal sufficiency review was not available as required by
USAMRAA Policy 08-01. USAMRAA officials did not obtain the cost saving benefit of
the MAC when they awarded sole-source task orders without an adequate justification
and they should prepare adequate justifications for the use of sole-source procurements
on future task orders awarded under MACs.



3
    The FAR 8.405-6 was updated as of May 16, 2011.

                                                      4
Price Reasonableness Not Adequately Determined
USAMRAA contracting officials awarded 2 of 20 task orders, valued at $35.4 million,
without adequately determining whether the prices were fair and reasonable. Under
FAR 15.404-1, “Proposal analysis techniques,” the contracting officer is responsible for
evaluating the soundness of offered prices to ensure that the final agreed to price is fair
and reasonable. Various proposal analysis techniques include assessing proposed prices
from competition, reviewing historical prices paid, comparing proposed prices with the
IGCE, or developing a cost realism analysis. A cost realism analysis is the process of
independently reviewing and evaluating specific elements of each offeror’s proposed cost
estimate to determine whether the estimate proposed costs are realistic for the work to be
performed. We identified weaknesses with the IGCE and the cost realism analysis used
to support the price reasonableness determinations on the two task orders awarded with
only one proposal. Without receiving multiple bids under competition, contracting
officials placed increased reliance on the contracting officer’s price analysis to support
the fair and reasonable price determination.

Task Order 20
USAMRAA contracting officials relied on inadequate IGCEs to support their price
reasonableness determinations for the two task orders with only one proposal.
USAMRAA Procurement Advisory Notice 07-01, “Preparation and Use of the
Independent Government Cost Estimate,” February 7, 2007, states that the IGCE is the
Government’s estimate of the resources and the projected cost of those resources that a
prudent contractor will incur in the performance of a contract.

USAMRAA contracting officials did not provide adequate support for the fair and
reasonable price determination in the acquisition decision memorandum (ADM) for task
order 20, valued at $24.8 million, under contract W81XWH-08-D-0025. The ADM
stated that the price reasonableness position relied on a cost realism analysis and an
IGCE. The ADM stated that the IGCE was developed using historical performance data
from prior and ongoing Military Health System support efforts but did not include
specifics on the source for past cost data. USAMRAA contracting officials included
labor rate categories in the IGCE but did not include an explanation of how the rates were
developed. In addition, the basis for the IGCE labor categories was an effort performed
on a General Services Administration contract, and the rates were derived from the
average of all the TEAMS contractor rates. The contracting office did not have the data
support for the IGCE.

In addition, USAMRAA contracting officials did not maintain adequate support for the
cost realism analysis on task order 20. The results of the analysis should reflect a clear
understanding of the requirements, and the analysis should be performed on cost
reimbursement contracts to determine the probable cost of performance. The probable
cost must be used for the purpose of evaluation to determine the best value. On task
order 20, the ADM stated that the price proposal was reviewed for cost realism; however,
the contracting officer did not provide a cost realism analysis to support the
Government’s price analysis. A contract specialist reported that the Government


                                             5
reviewed the level of effort and the mix of labor proposed to perform tasks but without a
cost realism analysis, this could not be substantiated. An analysis provides the estimated
labor hours and labor mix needed to complete work under the task order. As a result,
there was no assurance that the Government obtained a fair and reasonable price.
USAMRAA contracting officials should maintain complete contract file support for fair
and reasonable price determinations on negotiated task order awards.

Task Order 10
USAMRAA contracting officials did not include the basis for the cost estimate in the
IGCE for task order 10, valued at $10.5 million, under contract W81XWH-08-D-0023.
The ADM showed an IGCE amount for the base and all options years of $10.5 million
that was higher than the actual IGCE of $9.6 million. The contracting officials agreed
that the mistake was attributed to a mathematical error and, had they known about it
earlier, they may have negotiated a price closer to the actual IGCE. Therefore, we could
not determine whether the task order resulted in a fair and reasonable price. The
contracting officer should ensure that the basis for the IGCE is supported to provide
assurance that USAMRAA contracting officials negotiated awards that resulted in a fair
and reasonable price.

Conclusion
USAMRAA contacting officials had no assurance that the Government obtained the best
value for 5 task orders, valued at $44.1 million, of 20 task orders reviewed. Although
USAMRAA generally competed and received multiple proposals for task orders under
MACs to support fair opportunity, they awarded three task orders on a sole-source basis
without an adequate LSJ. Contracting officials must ensure that an adequate LSJ is
prepared for all sole-source task orders in accordance with the FAR and USAMRAA
policy. In addition, USAMRAA contracting officials awarded two task orders with only
one proposal received that resulted in inadequate price reasonableness. The contracting
officers did not have the support for the IGCEs. They also did not have a cost realism
analysis for one of the task orders. USAMRAA contracting officials need to place more
emphasis on documenting and supporting LSJ and price reasonableness determinations,
otherwise there is no assurance that USAMRAA contracting officials awarded task orders
that resulted in a fair and reasonable price or attained the best value.

Recommendations, Management Comments, and Our
Response
A. We recommend the Director, U.S. Army Medical Research Acquisition Activity,
to require contracting officers to:

       1. Prepare adequate justifications for the use of sole-source procurements on
future task orders awarded under multiple award contracts.




                                            6
Department of the Army Comments
The Office of the Surgeon General, Department of the Army, Chief of Staff, agreed,
stating that the U.S. Army Medical Research Acquisition Activity is drafting
Policy 12-01, “Justifications for Exception to Fair Opportunity,” to incorporate the
requirements of Federal Acquisition Regulation 16.505(b)(2)(ii)(B). He further stated
that the policy will be signed and issued to contracting personnel no later than
January 31, 2012.

      2. Verify that the independent Government cost estimates include adequate
support for the estimated costs.

Department of the Army Comments
The Chief of Staff agreed, stating that the Commanding General, U.S. Army Medical
Research and Materiel Command, alerted contracting officer’s representatives about the
Army requirement to submit adequately supported IGCEs in an August 24, 2011,
memorandum, “Contract Accountability and Service.” In addition, he stated that the
U.S. Army Medical Research Acquisition Activity Procurement Advisory Notice 07-01,
“Preparation and Use of the Independent Government Cost Estimate (IGCE),”
February 7, 2007, will be revised to further emphasize the requirement for the preparer of
the document to provide the basis and support for the estimated elements of cost. Also,
he stated that an acquisition note will be posted on the U.S. Army Medical Research
Acquisition Activity Intranet emphasizing this requirement. Finally, he stated that the
actions will be completed by January 31, 2012.

      3. Maintain complete contract file support for the basis for fair and
reasonable price determinations on negotiated task order awards.

Department of the Army Comments
The Chief of Staff agreed, stating that a cost realism training course is being developed to
present to U.S. Army Medical Research Acquisition Activity contracting personnel. He
also stated that the training will be accomplished no later than January 31, 2012.

Our Response
The comments of the Office of the Surgeon General on all three recommendations were
responsive, and no further comments are required.




                                             7
Finding B. Surveillance Needs Improvement
The CORs did not perform adequate surveillance on all 19 task orders 4 reviewed, valued
at $222.8 million, that USAMRAA awarded. Specifically, we identified the following
surveillance issues.

    •    The contracting officers and the CORs did not prepare QASPs for 13 task orders,
         valued at $188.3 million.

    •    The contracting officers and the CORs prepared inadequate QASPs for 6 task
         orders, valued at $34.5 million.

    •    The CORs did not maintain evidence of written approval for deliverables on
         18 task orders, valued at $202.5 million.

     •   CORs approved 6 invoices without adequate supporting documentation for other
         direct costs (ODC) totaling $139,916. In addition, they limited their review to
         the invoice charges submitted by the contractor or relied on detailed contractor
         cost reports without obtaining receipts.

This occurred because the contracting officers and the CORs did not understand QASP
requirements, and contracting officers prepared COR designation letters containing
language that was too general and not tailored to the specific surveillance requirements of
each task order. As a result, USAMRAA had no assurance that services were being fully
rendered or that contractors were not overpaid.

Criteria for Surveillance of Task Orders
FAR Subpart 46.4, “Government Contract Quality Assurance,” states that QASPs should
be prepared in coordination with the performance work statement. Additionally, QASPs
should identify all work requiring surveillance and the method of surveillance. The
surveillance can be performed at any time or location deemed necessary to ensure that
services conform to contract requirements.

DFARS 246.401, “General,” states “the requirement for a quality assurance surveillance
plan shall be addressed and documented in the contract file for each contract except those
awarded using simplified acquisition procedures.” For service contracts, the contracting
officer should prepare a QASP to facilitate assessment of contractor performance.

FAR Subpart 37.6, “Performance-Based Acquisition,” states that performance-based
contracts for services must include measureable performance standards and the method of
assessing contractor performance. The QASP is a key Government surveillance


4
 Surveillance on one task order began just before fieldwork, resulting in insufficient time to measure the
surveillance effort.

                                                     8
document that is used for performance-based service contracting to manage contractor
performance assessments. The QASP serves to ensure that systematic quality assurance
methods are used to validate that the contractor is delivering the results specified in the
contract.

Quality Assurance Surveillance Plans Not Prepared
The contracting officers and CORs did not prepare QASPs for 13 task orders, valued at
$188.3 million, of 19 task orders reviewed. All of the IDIQ contracts required that a
QASP be used to evaluate the contractor’s performance. Because contracting officials
issued task orders against the IDIQ contracts, they should have developed a QASP for
each individual task order. The contracting officers and the CORs did not understand the
QASP requirement. (See Appendix D for a summary of surveillance issues.)

For example, the COR for task order 17, valued at $3.5 million, awarded under
contract W81XWH-08-D-0017, stated, “The overarching contract for the individual task
orders has a QASP and the individual task orders do not. Therefore, I do not have a
QASP and do not utilize the master QASP to assist in overseeing this task order.”
However, the IDIQ QASP was a template and should have been tailored to the
requirements of the task order and subsequently used by the COR for surveillance of the
project.

Task order 15, valued at $7.6 million, awarded under contract W81XWH-08-D-0031, did
not have a QASP. We asked the COR if a QASP was developed and he responded, “Yes,
the QASP is a joint venture between the contract Project Manager and myself. All
aspects in the document are agreed to by both parties to ensure compliance.” The COR
provided the auditor with an unsigned quality control plan with a contractor logo that
contained no evidence that the COR had input into the contractor-created document. The
contractor develops a quality control plan for its use to ensure that services delivered
meet the Government’s requirement in the performance work statement. The quality
control plan is not the same as a QASP. A QASP is developed by DoD to monitor the
quality of a contractor’s performance, provide the COR with a proactive way to avoid
unacceptable or deficient performance, and provide verifiable input for the required past
performance information assessments. Confusing the contractor-prepared quality control
plan with the DoD-prepared QASP indicates a lack of understanding by the COR on the
use of a basic surveillance tool.

Task order 12, valued at $12.5 million, awarded under contract W81XWH-08-D-0039,
did not have a QASP. The COR provided a QASP and, when asked when it was
prepared, he stated that the QASP was prepared in response to our request. When asked
why the QASP was not prepared before the task order was awarded, the COR stated that
he was busy and the QASP was not a high priority for him. The COR was the second
COR assigned to the task order to monitor contractor performance. Based on the COR’s
statement, he was not diligent in performing his COR tasks. The QASP did not cover the
period of performance stated in the task order and was not available at the time the task
order was awarded. The QASP should have been developed before the contract was


                                             9
awarded and should have been signed and dated at the time of award to ensure the
contract file contained an accurate version.

USAMRAA contracting officials and CORs should have developed a QASP tailored to
performance-based contracts and task orders. USAMRAA should not award a task order
for services until a QASP is developed, signed, and dated.

Inadequate Quality Assurance Surveillance Plans
The contracting officers and the CORs prepared inadequate QASPs for 6 task orders,
valued at $34.5 million, of 19 task orders reviewed and did not adequately monitor
contractor performance. A QASP defines roles and responsibilities, identifies the
performance objectives, and defines the methodologies used to monitor and evaluate
performance. An inadequate QASP lacks a combination of defined roles and
responsibilities, performance objectives, and methodologies used to monitor and evaluate
contractor performance.

The surveillance methods in the QASP for task order 26, valued at $4.0 million, issued
under contract W81XWH-08-D-0014, were too general. The QASP stated that
“100 percent inspection” or “periodic inspection” and “customer complaints” will be
used as the method of surveillance but did not state when or how often an inspection
would occur. In addition, the metrics were not specific and lacked a clear relationship to
the task order’s statement of work. As a result, we cannot be assured that the COR
conducted timely monitoring or that DoD attained the services stipulated in the contract.

The QASP for task order 10, valued at $10.5 million, issued under contract W81XWH-
08-D-0023, was inadequate because the COR simply attached the performance matrix
from the task order. However, the performance matrix did not match the performance
work statement. In addition, the contractor’s weekly progress report did not connect the
work completed to the performance work statement. Specifically, the task order
performance work statement required both civilian provider and Military Health System
beneficiary surveys, but the weekly progress report cited by the COR did not address the
surveys. Also, the COR relied on the contractor’s weekly progress reports and not her
own evaluation. Further, the COR delegated her responsibilities to attend weekly
progress meetings to personnel that were not appointed to serve as a COR on the task
order.

USAMRAA contracting officials used a performance summary matrix to serve as a
QASP. The performance summary matrix lacked the required elements of a QASP.
Each task order should have a QASP that clearly links performance metrics to the
statement of work to measure progress. Further, the USAMRAA Chief of the Policy
Branch acknowledged that the performance summary matrix is not a QASP. The QASP
should be developed, signed, and dated by the time a task order is awarded. To ensure
COR monitoring is effective, the COR should provide periodic reports on contractor
progress to the contracting officer.



                                            10
Contracting Officer’s Representative Acceptance of
Deliverables Not Documented
The CORs did not maintain written approval of deliverables on 18 task orders, valued at
$202.5 million, of 19 task orders reviewed. FAR 46.501, “General,” states that
acceptance constitutes acknowledgement that the supplies or services conform to
applicable contract quality and quantity requirements. FAR 46.501 also states that the
acceptance should ordinarily be evidenced by execution of an acceptance certificate on an
inspection. FAR 4.802, “Contract Files,” requires that a contract file should include
documents reflecting the basis for and the performance of contract administration
responsibilities. The acceptance of the deliverables should be documented, and the
documentation should be included in the COR contract file.

The CORs verbally approved deliverables. The COR for task order 9, valued at
$4.7 million, awarded under contract W81XWH-08-D-0039, stated that he did not
approve deliverables because he did not have the analytical or health care expertise to
approve every detailed deliverable on very detailed military healthcare issues that
contained statistical methodology. The COR stated that he relied on subject matter
experts as well as the final acceptance by the Business and Economic Analysis Director
or Deputy Director. The COR email also stated, “The distribution of a deliverable to the
client constitutes approval (i.e. approvals are not documented per se).” The COR
designation letter stated that a COR must not delegate responsibilities. In this case, the
COR stated that he relied on subject matter experts to review the deliverable but did not
document the results, even though FAR 4.802 states that a contract file should include
documentation of actions reflecting the basis for and the performance of contract
administration responsibilities.

On task order 27, valued at $2.6 million, under contract W81XWH-08-D-0014, the COR
did not have written documentation for approval of the monthly progress report. The
monthly progress report contained only a short summary of work performed during the
previous month. The task order stated that monthly progress reports should include start
date, projected end date, activity status, funding allocated to the work breakdown
structure, financial labor data, current period data by work breakdown structure, labor
hours, labor cost, other incurred direct costs, and total cost. However, the monthly
progress reports did not have the required information; therefore, they were inadequate
and should not have been approved. Verbal approval by the COR does not provide for a
sound basis to identify what type of assessment was made in determining whether to
accept or reject a deliverable. Written acceptance is needed and should be included as
part of the contract file.

Language in Contracting Officer’s Representative
Designation Letters Too General
The USAMRAA contracting officers prepared COR designation letters for all 19 task
orders, valued at $222.8 million. The language in the letters was general and not tailored
to the requirements of the specific projects. Specifically, 11 of the COR designation


                                            11
letters for the TEAMS MAC were created using a standard template without any
adjustment to the particular task order awarded under the MAC.

DFARS 201.602-2, “Responsibilities,” requires the contracting officer to designate
contract administration responsibilities to the COR in writing. It states that a COR
designation letter will be developed and furnished to the contractor and the contract
administration office. Deputy Secretary of Defense Memorandum, “Monitoring Contract
Performance in Contracts for Services,” August 22, 2008, states that COR activities
should be tailored to the dollar value and complexity of the specific contract. The CORs
should ensure that contractors comply with all contract requirements and that overall
performance is commensurate with the level of payments made throughout the life of the
contract. The COR designation letters should be tailored to each task order to ensure
successful oversight.

We asked one COR if the COR designation letter for task order 15, valued at
$7.6 million, issued under contract W81XWH-08-D-0031, was tailored for this task
order. The COR responded, “no, this is a blanket appointment letter that is used for all
TEAMS contract task orders.” An excerpt from all COR letters issued under TEAMS
task orders read, “Verify the contractor performs the technical requirements of the
contract in accordance with the contract terms, conditions, and specifications.” The
wording should have been tailored to the COR’s responsibilities for each task order.

Invoice Review Needs Improvement
We reviewed nine invoices, 5 valued at $1.3 million, issued under three firm-fixed-price
task orders, valued at $18.1 million, with cost lines for ODCs. The CORs approved six
invoices with unsupported ODCs totaling $139,916. The CORs did not conduct adequate
reviews because they limited their review to the invoice charges submitted by the
contractor or relied on detailed contractor cost reports without obtaining receipts.

Three invoices, totaling $525,585, on task order 10 under contract W81XWH-08-D-0023,
did not include supporting documentation for ODCs totaling $124,820 even though the
contract requires that all ODCs be fully supported. Specifically, the invoices and
contractor cost reports for July, August, and September 2010 contained $108,686 for
postage expense, $11,319 for “Other,” $4,393 for equipment and supplies, and $422 that
was not associated with a specific category. The COR was unable to provide details on
the review method and how the costs were determined acceptable, but the COR approved
the invoices for payment.

Two invoices, totaling $305,879, on task order 17 under contract W81XWH-08-D-0017,
did not include supporting documentation for ODCs totaling $14,495 even though the
contract requires that all invoices for travel must be submitted with receipts to the COR
before payment can be made. Specifically, the invoices for October and November 2010
did not include receipts for travel and ODCs totaling $14,495.


5
    Three invoices did not have any charges for other direct costs.

                                                       12
The December 2010 invoice for $601 for travel costs on task order 26 under contract
W81XWH-08-D-0014 did not include supporting documentation even though the
contract requires that all invoices for travel be submitted with receipts to the COR before
payment can be made. The invoice included an expense summary report but did not
include receipts to show actual costs incurred. The COR approved the invoice without
having supporting receipts for the travel costs.

CORs should request and maintain receipts to verify charges billed for ODCs. The lack
of supporting documentation for invoices increased the risk for improper payment.
USAMRAA officials should obtain supporting documentation or recover the unsupported
ODCs that have been paid to the contractors and should verify all other direct cost
charges on the three task orders.

Conclusion
USAMRAA surveillance on task orders was inadequate. We identified weaknesses in
surveillance on all 19 task orders reviewed that were attributed to nonexistent or
inadequate QASPs, general language in COR designation letters, and deliverables
approved without written support. No QASPS were prepared for 13 of 19 task orders
reviewed and the 6 QASPs that were prepared did not include clear and detailed methods
of surveillance and were often not complete enough to be useful. In addition, the QASPs
should have been signed and dated by the COR and the contracting officer before the
period of performance began so that the proper personnel were held accountable for
surveillance. Also, the contracting officer should have ensured that the CORs had
adequate and well-documented contract files. The lack of QASPs, inadequate QASPs,
general language in COR designation letters, no documentation for acceptance of
deliverables, and inadequate review of invoices resulted in little assurance that the
services were fully rendered.

Recommendations, Management Comments, and Our
Response
B. We recommend the Director, U.S. Army Medical Research Acquisition Activity,
require:

       1. Contracting officers and contracting officer’s representatives to develop
quality assurance surveillance plans that provide metrics to evaluate contractor
performance and provide set time frames for frequency of reporting relevant to the
contract. Quality assurance surveillance plans should identify who has
responsibility for surveillance and the level of reporting to the contracting officer.

Department of the Army Comments
The Office of the Surgeon General, Department of the Army, Chief of Staff, agreed,
stating that the U.S. Army Medical Research Acquisition Activity will provide detailed
information on the format and content of a quality assurance surveillance plan in
Procurement Advisory Notice 12-01 to be published by January 31, 2012.

                                            13
       2. A review of the performance of the contracting officer’s representative for
task order 12 awarded under contract W81XWH-08-D-0039 to determine whether
administrative action is warranted.

Department of the Army Comments
The Chief of Staff agreed, stating that the Director, U.S. Army Medical Research
Acquisition Activity, will direct a review of the performance of the contracting officer’s
representative for task order 12 awarded under contract number W81XWH-08-D-0039.
He also stated that a report of the review will be provided to the Director no later than
January 31, 2012.

       3. Contracting officers and contracting officer’s representatives to sign and
date quality assurance surveillance plans before the start of the task order
performance period.

Department of the Army Comments
The Chief of Staff agreed, stating that the requirement will be established in an
acquisition note to be published on the U.S. Army Medical Research Acquisition Activity
Intranet by December 31, 2011.

       4. The contracting officer’s representative to report contractor progress to
the contracting officer in writing.

Department of the Army Comments
The Chief of Staff agreed, stating that the U.S. Army Medical Research Acquisition
Activity will include the written reporting requirement in Procurement Advisory
Notice 12-01 to be published by January 31, 2012.

       5. The contracting officer’s representative to document support for
inspection and acceptance of deliverables. The approval should clearly identify the
type of review performed and basis for the approval.

Department of the Army Comments
The Chief of Staff agreed, stating that the U.S. Army Medical Research Acquisition
Activity contracting officers will be reminded of this requirement in an acquisition note
to be published on the U.S. Army Medical Research Acquisition Activity Intranet by
December 31, 2011.

       6. Contracting officers to develop contracting officer’s representative
designation letters that are tailored to each task order.

Department of the Army Comments
The Chief of Staff agreed, stating that the U.S. Army Medical Research Acquisition
Activity contracting officers will be advised in an acquisition note that task orders with

                                             14
statements of work covering a broad range of services necessitate tailored COR
appointment designations. He further stated that the acquisition note will be published on
the U.S. Army Medical Research Acquisition Activity Intranet by December 31, 2011.

       7. The contracting officer’s representative to review invoices on orders,
including emphasis on other direct costs. Contracting officer’s representatives must
ensure that all other direct costs are fully supported before approving the invoices
and that supporting documentation is maintained in the contract file.

Department of the Army Comments
The Chief of Staff agreed, stating that contracting officer’s representative appointment
designations for task orders that allow the contractor to submit invoices for other direct
costs will include directions requiring the contracting officer’s representative to approve
such costs only after receiving documentation justifying the costs. He also stated that
Procurement Advisory Notice 10-03, “Contracting Officer Representative/Grants Officer
Representative (COR/GOR) File Content,” May 4, 2010, will be revised to emphasize
this point. He further stated that the change to the contracting officer’s representative
appointment designations and revision of Procurement Advisory Notice 10-03 will be
completed by February 29, 2012.

      8. The contracting officer’s representative to initiate action to obtain
adequate supporting documentation or recover unsupported other direct costs of:

               a. $124,820 on task order 10 under contract W81XWH-08-D-0023.

               b. $14,495 on task order 17 under contract W81XWH-08-D-0017.

               c. $601 on task order 26 under contract W81XWH-08-D-0014.

Department of the Army Comments
The Chief of Staff agreed, stating that the U.S. Army Medical Research Acquisition
Activity has initiated actions to recover the unsupported other direct costs by January 31,
2012.

       9. The contracting officer’s representative to obtain supporting
documentation and verify all other direct cost charges on firm-fixed-price task
orders with other direct cost lines.

Department of the Army Comments
The Chief of Staff agreed, stating that the U.S. Army Medical Research Acquisition
Activity will issue guidance requiring contracting officer’s representatives to obtain
supporting documentation and verify all other direct cost charges on firm-fixed-price task
orders with other direct cost lines. He also stated that implementation will be completed
by March 1, 2012.



                                            15
Our Response
The comments of the Office of the Surgeon General on all nine recommendations were
responsive, and no further comments are required.




                                         16
Appendix A. Scope and Methodology
We conducted this performance audit from October 2010 through October 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We collected, reviewed, and analyzed documents on 20 task orders, valued at
$235.1 million, from two MACs issued in FYs 2009 and 2010 at USAMRAA at Fort
Detrick, Maryland. See Appendix C for a list of MACs and task orders reviewed. We
reviewed pre-award documentation on 20 task orders including price negotiation
memoranda, request for proposals, proposals, and sole-source justifications. As part of
the 20 task orders, we examined 2 one bid task order awards for price reasonableness by
examining the acquisition decision memorandums, IDIQ labor rates, and IGCEs. To
determine whether surveillance was adequate, we examined COR designation letters,
COR training certificates, QASPs, contractor program management plans, contractor
quality control plans, and contractor progress reports. Additionally, we examined nine
invoices under firm-fixed-price task orders. We reviewed documentation from April
1999 through April 2011.

To evaluate whether USAMRAA complied with appropriate Federal and DoD criteria for
competition and oversight, we reviewed the United States Code, FAR, DFARS, and
USAMRAA policies. We interviewed contracting personnel, program office personnel,
and CORs at USAMRAA and TRICARE Management Activity in Falls Church,
Virginia.

Use of Computer-Processed Data
We used computer-processed data from two databases to identify the universe of
contracts and task orders to review—the Federal Procurement Data System and the
Electronic Document Access System. We ran queries using both of these systems to
determine contracting organizations to visit and selected a judgment sample of task
orders for review.

We used the data only to identify which task orders to review. We selected a judgment
sample of task orders issued in FYs 2009 and 2010 or task orders with a modification
issued in FYs 2009 and 2010 with high dollar amounts at USAMRAA. Once we
identified the orders that matched our criteria, we used only the documentation contained
in the contract and task order files to support our findings, conclusions, and
recommendations.




                                           17
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DoD Inspector
General (DoD IG), the Air Force Audit Agency, and Special Inspector General for Iraq
Reconstruction have issued 20 reports discussing competition and surveillance.
Additionally, DoD IG issued two reports prior to 2006 that are directly related to
competition on task orders issued on multiple-award contracts. Unrestricted GAO reports
can be accessed over the Internet at http://www.gao.gov/. Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/audit/reports.

Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
http://afkm.wpafb.af.mil/ASPs/CoP/OpenCop.asp?Filter=OO-AD-01-41 by those with
Common Access Cards.

Special Inspector General for Iraq Reconstruction unrestricted reports can be accessed
over the Internet at http://www.sigir.mil/Default.aspx.

GAO
GAO Report No. 09-579, “Contract Management: Minimal Compliance with New
Safeguards for Time-and-Materials Contracts for Commercial Services and Safeguards
Have Not Been Applied to GSA Schedules Program,” June 24, 2009

GAO Testimony No. 09-643T, “Defense Acquisitions: Actions Needed to Ensure Value
for Service Contracts,” April 23, 2009

GAO Report No. 07-273, “Defense Contracting: Improved Insight and Controls Needed
over DoD’s Time-and-Materials Contracts,” June 29 2007

GAO Report No. 06-838R, “Contract Management: DoD Vulnerabilities in Contracting
Fraud, Waste, and Abuse,” July 7, 2006

DoD IG
DoD IG Report No. D-2010-087, “Weakness in Oversight of Naval Sea Systems
Command Ship Maintenance Contract in Southwest Asia,” September 27, 2010

DoD IG Report No. D-2010-081, “Army Use of Time-and-Materials Contracts in
Southwest Asia,” August 27, 2010

DoD IG Report No. D-2010-078, “Air Force Use of Time-and-Materials Contracts in
Southwest Asia,” August 16, 2010

DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,”
May 14, 2010



                                           18
DoD IG Report No. D-2009-109, “Contracts Supporting the DoD Counter
Narcoterrorism Technology Program Office,” September 25, 2009

DoD IG Report No. D-2009-083, “Logistics Support Contracting for the United States
Special Operations Command,” May 28, 2009

DoD IG Report No. D-2009-082, “SeaPort Enhanced Program,” May 6, 2009

DoD IG Report No. D-2009-036, “Acquisition of the Air Force Second Generation
Wireless Local Area Network,” January 16, 2009

DoD IG Report No. D-2008-007, “Task Orders on the Air Force Network-Centric
Solutions Contract,” October 25, 2007

DoD IG Report No. D-2007-118, “Contract Administration of the Ice Delivery Contract
Between International American Products, Worldwide Services and the U.S. Army Corps
of Engineers During the Hurricane Katrina Recovery Effort,” August 24, 2007

DoD IG Report No. D-2007-106, “Air Force Network-Centric Solutions Contract,”
June 29, 2007

DoD IG Report No. D-2006-076, “Report on DoD Compliance with the Prompt Payment
Act on Payments to Contractors,” April 19, 2006

DoD IG Report No. D-2001-189, “Multiple Award Contracts for Services,”
September 30, 2001

DoD IG Report No. D-1999-116, “DoD Use of Multiple Award Task Order Contracts,”
April 2, 1999

Air Force Audit Agency
Air Force Audit Agency Report No. F-2008-0004-FC1000, “Competition in Multiple
Award Service Contracts,” April 3, 2008

Air Force Audit Agency Report No. F-2008-0001-FC1000, “Management and Oversight
of the Acquisition of Services Process,” October 1, 2007

Special Inspector General for Iraq Reconstruction
Special Inspector General for Iraq Reconstruction Report No.09-017, “Need to Enhance
Oversight of Theater-Wide Internal Security Services Contracts,” April 24, 2009

Special Inspector General for Iraq Reconstruction Report No.07-001, “Logistics Civil
Augmentation Program Task Order 130: Requirements Validation, Government
Oversight, and Contractor Performance,” June 22, 2007



                                          19
Appendix C. Task Orders Reviewed
We reviewed eight task orders issued under the MAC supporting the USAMRMC
research, development, and acquisition areas. Each task order we selected for review
had a ceiling of $100 million; however, a ceiling amount for the MAC was not
established.
                      Table 1. USAMRMC Support MAC Task Orders

                                                                    Task Order Amount
   IDIQ Contract        Task Order                                  (base year plus option
      Number             Number            Task Order Type                  years)
W81XWH-08-D-0014            26             Firm-Fixed-Price                      $ 4,023,411
W81XWH-08-D-0014            27              Firm-Fixed-Price                        2,574,145
W81XWH-08-D-0015            24             Time-and-Materials                        541,888
W81XWH-08-D-0015            17             Time-and-Materials                       4,690,916
W81XWH-08-D-0015            28              Firm-Fixed-Price                        3,730,431
W81XWH-08-D-0017            43             Time-and-Materials                       2,642,280
W81XWH-08-D-0017            39              Firm-Fixed-Price                        3,567,541
W81XWH-08-D-0017            17              Firm-Fixed-Price                        3,515,921
Total                                                                             $25,286,533

We reviewed 12 task orders issued under the MAC supporting the TRICARE
Procurement Support Office. As of January 2011, the overall MAC has a not-to-exceed
ceiling of $10.5 billion.
                           Table 2. TEAMS MAC Task Orders

                                                                     Task Order Amount
  IDIQ Contract       Task Order                                     (base year plus option
     Number            Number             Task Order Type                    years)
W81XWH-08-D-0028          10             Cost-Plus-Fixed-Fee                 $     60,910,345
W81XWH-08-D-0028          13               Firm-Fixed-Price                         9,723,260
W81XWH-08-D-0024          20             Cost-Plus-Fixed-Fee                        2,953,090
W81XWH-08-D-0024          18               Firm-Fixed-Price                        34,773,200
W81XWH-08-D-0025          20             Cost-Plus-Fixed-Fee                       24,829,592
W81XWH-08-D-0025          24             Cost-Plus-Fixed-Fee                       12,364,426
W81XWH-08-D-0025          21              Cost Plus-Fixed Fee                       8,802,847
W81XWH-08-D-0031          15             Cost-Plus-Fixed-Fee                        7,558,468
W81XWH-08-D-0023          10               Firm-Fixed-Price                        10,526,935
W81XWH-08-D-0039           9             Cost-Plus-Fixed-Fee                        4,687,500
W81XWH-08-D-0039          12             Cost-Plus-Fixed-Fee                       12,464,326
W81XWH-08-D-0032           8             Cost-Plus-Fixed-Fee                       20,264,904
Total                                                                            $209,858,893




                                          20
        Appendix D. Surveillance Issues

Contract/Task Order            Services Purchased       No    Inadequate   Inadequate        No        Inadequate
     Number                                            QASP     QASP         COR        Documented     Surveillance
                                                                             Letter     Approval on
                                                                                        Deliverables

Professional Support Services for USAMRMC

W81XWH08D0014-0026               General Support                   ●           ●             ●              ●


W81XWH08D0014-0027              Software Engineer                  ●           ●             ●              ●
                                     Support

W81XWH08D0015-0024              Study to Assess         ●                      ●             ●              ●
                                  Biodefense
                              Countermeasure T&E

W81XWH08D0015-0017             Analytical Services      ●                      ●             ●              ●


W81XWH08D0015-0028            Enterprise Information    ●                      ●             ●              ●
                               Technology Support

W81XWH08D0017-0043               Decision Gate          ●                      ●             ●              ●
                              Document Specialists
                                   Support

W81XWH08D0017-0039               General Support        ●                      ●             ●              ●


W81XWH08D0017-0017            PACS Office Support       ●                      ●             ●              ●



Program Management Support Services for TRICARE Management Activity

W81XWH08D0028-0010            Developmental, Test,      ●                      ●             ●              ●
                             and Evaluation Services

W81XWH08D0028-0013               Business Process                  ●           ●             ●              ●
                                Improvement and
                                Validation Support

W81XWH08D0024-0020             TMA Technical and                   ●           ●             ●              ●
                              General Administrative
                                     Support

W81XWH08D0024-0018              DHIMS Garrison          ●                      ●             ●              ●
                               Business Operations
                                    Support




                                                              21
                             Services Purchased        No    Inadequate   Inadequate        No        Inadequate
   Contract/Task Order                                QASP     QASP         COR        Documented     Surveillance
        Number                                                              Letter     Approval on
                                                                                       Deliverables
                               HIPAA Security          ●                      ●             ●              ●
W81XWH08D0025-0020            Technical Support

                             Program Management       N/R         N/R        N/R           N/R            N/R
W81XWH08D0025-0024              Office Support


                            DCoE Development and       ●                      ●             ●              ●
W81XWH08D0025-0021           Identification of Best
                               Practices Support

                             Program Management        ●                      ●             ●              ●
W81XWH08D0031-0015               and Support


                             Healthcare Surveys -                 ●           ●             ●              ●
W81XWH08D0023-0010               Operations

                            Business and Economic                 ●           ●             ●              ●
W81XWH08D0039-0009                 Analysis
                              Implementation and
                                   Support
                             Pharmacy Operations       ●                      ●             ●              ●
W81XWH08D0039-0012              Center Support

                             Program Management        ●                      ●                            ●
W81XWH08D0032-0008                 Support

Totals                                                 13          6         19            18             19



DCoE             Defense Centers of Excellence for Psychological Health and Traumatic Brain Injury
DHIMS            Defense Health Information Management System
HIPAA            Health Insurance Portability and Accountability Act
N/R              Not Reviewed
PACS             Picture Archival and Communication Systems
T&E              Test and Evaluation
TMA              TRICARE Management Activity




                                                             22
Department of the Army, Office of the Surgeon General
Comments




                                       DEPARTMENT OF THE ARMY
                                      OFFICE OF THE SURGEON GENERAl.
                                             SI09 LEESBURG PIKE
                                        FAl.LS ()fURCH, VA 22041~




       DASG-ZX
                                                                               23 NOV 2011

       MEMORANDUM FOR Oepartm~r General, Acquisition and
       Contract Management, ATTN: ~ 400 Army Navy Drive, Arlington,
       VA 22202-4704

       SUBJECT: Reply to DODIG Draft Report. Award and Administration of Multiple Award
       Contracts for Services at U.S. Anny Medical Research Acquisition Activity Needs
       Improvement (ProJect No. D20t l-DOOOCF-<J047.000)


       1, Thank for you the opportunity to review this report. Our comments are enclosed for
       your consideration.




       FOR THE SURGEON GENERAL:
                                 Click to add JPEG file
                                                ~()..(I.JLv
       Encl                                     HERBERT A.       coCE.£(
                                                Chief of Staff




                                                                    23
Department of the Army, Office of the Surgeon General
Comments




                            U.S. Army Medical Command (MEDCOM) and
                               Office of the Surgeon General (OTSG)

                             Comments on DOOIG Draft Report
        Award and Administration of Multiple Award Contracts for Services at U.S. Army
                 Medical Research Acqu isition Activ ity Needs Improvement
                           (Proj ect No. D2011 -DOOOCF-0047.000)


       RECOMMENDATION A.l.: We recommend t he Director. U.S. Army Medical Research
       Acquisition Activity require contracting officers to: prepare adequate justifications for the
       use of sole-source procurements on future task orders awarded under multiple award
       contracts.

       RESPONSE: Concur. U.S. Army Medical Research Acquisition Activity (USAMRAA)
       Policy 12-01 , Justifications for Exception to Fair Opportunity. is being drafted in
       agreement with Ihe requirements of FAR 16.505(b)(2)(ii)(B). The policy wi ll be signed
       and issued to contracting personnel no later than 31 January 2012.



       RECOMMENDATION A.2. : We recommend the Director, U.S. Army Medical Research
       Acquisition Activity verify independent Government cost estimates include support for
       the estimated costs.
                                  Click to add JPEG file
       RESPONSE : Concur. Independent Government cost estimates are the product of the
       customer. Reliance on inadequately supported independent Government cost
       estimates inhibits the Contracting Officer from ensuring a fair and reasonable price
       determination has been made. The Commanding General , U.S. Army Medical
       Research and Materiel Command (USAMRMC) alerted Contracting Officer's
       Representatives (COR) of the Army requirement to submit adequately supported
       independent Government cost estimates in a 24 August 2011 memorandum, Contract
       Accountability and Service. USAMRAA Procuremenl Advisory Notice (PAN) 07-01 ,
       Preparation and Use of Independent Government Cost Estimates, will be revised to
       further emphasize the requirement for the prepa rer of the document to provide the basis
       and support for the estimated elemen ts of cost. Th is will p rovide Contracti ng Officers
       the support needed to verify the accuracy of the estimates. In addition, an Acquisition
       Note will be placed on the USAMRAA Intranet emphasizing this requirement. These
       actions will be completed by 31 January 2012.



       RECOMMENDATION A.3. : We recommend the Director, U.S. A rmy Medical Research
       Acquisition Ac1ivity maintain complete contract file support for the basis for fair and
       reasonable price determinations on negotiated task order awards.




                                                                                               Encl




                                                               24
Department of the Army, Office of the Surgeon General
Comments




       RESPONSE: Concur. The appropriate proposal analysis technique discussed in
       FAR 15.404-1 must be used to determine whether a task order is fair and reasonable.
       Additionally, Contracting Officers must be confident independent government cost
       estimates relied upon for determining price reasonableness a re properly supported.
       Cost reimbursement task orders req uire the performance of a cost realism analysis to
       determine whether the estimated proposed cost elements are realistic for the work to be
       perlormed; reflect a clear understanding of the requirements; and are consistent with
       offeror's technical proposal. A probable cost is developed and used for a best value
       determination , including fairness and reasonableness of price. A Cost Realism training
       course is being developed for presentation to Activity contracting personnel. The
       training will be accomplished no later than 31 January 2012.



       RECOMMENDATION B.l.: We recommend Ihe Direclor, U.S. Army Medical Research
       Acquisition Activity require contracting officers and contracting officer's representatives
       to develop quality assu rance surveillance plans that provide metrics to evaluate
       contractor performance and provide set timeframes for frequency of reporting relevant
       to the contract. Quality assurance surveillance plans should identify who has
       responsibility for surve illance and the level of reporting to the contracting officer.

       RESPONSE: Concur. The content of a quality assurance surveillance plan can vary
       depending upon the dollar amount and complexity of the services being performed. The
                                 Click to add JPEG file
       task order quality assurance surveillance plans reviewed by the OOOIG audit team
       demand everylhlng CaplUred in Ihe recommendation. PAN 12-01, to be published by
       USAMRAA by 31 January 2012, will provide detailed information regarding the format
       and content of a quality assurance surveillance plan.



       RECOMMENDATION B.2.: We recommend the Director, U.S. Army Medical Research
       Acquisition Activity req uire a review of the performance of the contracting officer's
       representative for task order 12 awarded under contract WB1XWH-08-0-0039 to
       determine whether administrative action is warranted .

       RESPONSE: Concur. The Director, USAMRAA will direct a review of the perfonnance
       of the COR for task order 12 awarded under contract number W81 XWH-08-D-0039 . A
       report of the review will be provided the Director no later than 31 January 2012.



       RECOMMENDATION B.3.: We recommend the Director, U.S. Army Medical Research
       Acquisition Activity require contracting officers and contracting officers representatives
       to sign and date quality assurance surveillance plans before the start of the task order
       performance period.




                                                   2




                                                              25
Department of the Army, Office of the Surgeon General
Comments




       RESPONSE : Concur. A quality assurance surveillance plan adequate for the
       complexity and dollar value of the task order must be agreed upon and signed by the
       Contracting Officer and the COR prior to the establishment of the task order. T his
       requirement will be established in an Acquisition Note placed on the USAMRAA
       Intranet. This will be accomplished by 31 December 2011 .



       RECOMMENDATION B.4.: We recommend the Director, U.S . Army Medical Research
       Acquisition Activity require the contracting officers representative to report contractor
       progress to the contracting officer in writing .

       RESPONSE: Concur. PAN 12-01 will include this written reporting requirement; the
       PAN will be published by USAMRAA by 31 January 2012.



       RECOMMENDATION B.S.: We recommend the Director, U.S. Army Medical Research
       Acquisition Activity req uire the contracting officer's representative to document support
       for inspection and acceptance of deliverables. The approval should clearly identify the
       type of review performed and basis for the approval.

       RESPONSE: Concur. Pe r USAMRAA PAN 10-03, Contracting Officer Representativel
                                  Click to add JPEG file
       Grant Officer Representative File Content, CORs must complete receipt and
       acceptance documents for deliverables and must include them in the respective COR
       files. The Commanding General, USAMRMC alerted CORs of this responsibility in his
       24 August 201 1 memorandum, Contract Accountability and Surveillance. USAMRAA
       Contracting Officers will be reminded of this requirement in an Acquisition Note by
       31 December 2011 .



       RECOMMENDATION B.S.: We recommend the Director, U.S. Army Medical Research
       Acquisition Activity req uire contracting officers to develop contracting officer's
       representative designation letters that are tailored to each task order.

       RESPONSE: Concur. USAMRAA Contracting Officers wi11 be advised in an Acquisition
       Note that task orders with statements of work covering a very broad range of services
       necessitate tailored COR appOintment deSignations. The Note will be published by
       31 December 2011 .



       RECOMMENDATION B .7. : We recommend the Director, U.S. Army Medical Research
       Acquisition Activity reQuire the contracting officer's representative to review invoices on
       orders, including emphasis on other direct costs . Contracting officer's representatives



                                                    3




                                                               26
Department of the Army, Office of the Surgeon General
Comments




        must ensure that all other direct costs cha rges are fully supported before approving the
        invoices and that supporting documentation is maintained in the contract file .

       RESPONSE: Concur . COR appointment designations for task orders anticipated to
       include submission of invoices for other direct costs will include directions requiring
       CORs approve such costs only after receiving documentation justifying the costs.
       Additionally, PAN 10·03 will be revised to emphasize this point. The change to the
       COR designation appointment and revision of PAN 10-03 will be completed by
       29 February 2012 .



       RECOMMENDATION B.8.: We recommend the Director, U.S. Army Medical Research
       Acquisition Activity require the COR initiate action to recover unsupported indirect costs
       of:

             a. $124,820 on task order 10 under contract W81XWH-08-D-0023.

             b. $14,495 on task order 17 under contract W81XWH-08-D-001 7.

             c. $601 on task order 26 under contract W81XWH-08-D-0014 .

       RESPONSE: Concur. USAMRAA has inrtiated actions to implement the
       recommendation , and antici pate completion by 31 January 2012 .
                                  Click to add JPEG file

       RECOMMENDATtON B.9.: We recommend the Director, U.S. Army Medical Research
       Acquisition Activity require the COR to obtain supporting documentation and verify all
       other direct cost charges on firm·fixed-price task orders with other direct cost lines.

       RESPONSE : Concur. USAMRAA will issue guidance requiring CORs to obtain
       supporting documentation and verify all other direct cost charges on firm·fixed-price
       task orders with other direct cost lines. Implementation will be complete by
       1 March 2012.




                                                   4




                                                              27
